No. 21-184
IN THE

Supreme Court of the United States
KEVIN BYRD,
Petitioner,
v.
RAY LAMB,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 9th day of September, 2021, I caused three copies of the Motion for Leave
to File and Brief of the American Civil Liberties Union, Cato Institute, DKT Liberty
Project, Goldwater Institute, Law Enforcement Action Partnership, and New Civil
Liberties Alliance as Amici Curiae in Support of Petitioner to be served by third-party
commercial carrier on the counsel identified below, and caused an electronic version to
be transmitted to the counsel identified below, pursuant to Rule 29.5 of the Rules of this
Court. All parties required to be served have been served.
Anna Aleksandrovna Bidwell
INSTITUTE FOR JUSTICE
901 North Glebe Road
Suite 900
Arlington, VA 22203
(703) 682-9320
abidwell@ij.org

Ray Lamb
10576 Fallow Lane
Conroe, TX 77303
(936) 203-9782
gg24parknw117sp@yahoo.com
Pro Se Respondent

Counsel for Petitioner

/s/ Theane Evangelis
Theane Evangelis

